CERTIFICATE OF COMPLIANCE
No.
WALTER P. VARGO, JR.
and
STEPHANIE B. MCCLOUD, Administrator
Ohio Bureau of Workers Compensation originally named as Sarah Morrison,
Petitioner(s)
v.
D & M TOURS, INC.; JOSE ROMAN; FEDEX CORPORATION;
WILLIAM A. STAUFFER; AND L. T. HARNETT TRUCKING, INC.
Respondent(s)
As required by Supreme Court Rule 33.1(h), I certify that the petition for a
writ of certiorari contains 5686 words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 1, 2021.

/s/ Irene K. Makridis
Irene K. Makridis

